WRIT OF CERTIORARI NO.
IN THE SUPREME COURT OF THE
UNITED STATES
JERRY LEE CANFIELD
Petitioner - Appellant,

Vs.
BOBBY LUMPKIN, Director, Texas Department of Criminal Justice,
Coreectional Institutions Division,
Respondent - Appellee.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the
Fifth Circuit, Cause No. 18-10431.

MOTION FOR EXTENSION OF TIME TO FILE WRIT OF CERTIORARI
COMES NOW, Jerry Lee Canfield, Petitioner in the above -styled
and -numbered cause, and seeks for this Honorable Court's permission to extend the filing deadline to file Writ of Certiorari by
SIXTY (60) days, and further, shows this Honorable Court JUST
CAUSE to GRANT the motion as explained below.
The Petitioner is incarcerated in the TDCJ-CID H.H. Coffield
Unit in Anderson County, Texas.
The Petitiioner is indigent and is without Counsel for his
help; therefore, Petitioner is proceeding in the pro se status.
The Coffield Unit is still operating under COVID-19 protocals.
4YThe Coffield Unit law library only allows inmates "five (5),
two (2) hour sessions per,week and only one two (2) hour session
page 01

per day," for a total of ten (10) hours per week to conduct their
research, prepare and draft out legal documents, and file their
documents in the proper Court's.
Additionally, during each law library session, inmates are
only allowed to request for three (3) specified authorities (i.e.,
either shepards, case law, or relevant statutory law'from: the
Lexis Nexis data base) to be returned at the end of each session.
However, the inmate does not receive their specified requests ins
til the next day during a session only.
The Coffield Unit law library restricts all materials, books,
and requested authorities from Lexis Nexis to be within the past
twenty-five {25)• years. I do not have access to several cases that
are extremely vitial to my issues and must have friends or family
obtain this research from an outside law library, print it, and
then mail it of me at the Coffield Unit.-For example, Irvin v.
Dowd; Parker v. Gladden; and Turner v. louisiana just to name a
select few.
The Fifth Circuit Court of Appeals, issued their opinion on
May 21, 2021. Petitioner filed a Petition for Rehearing on June
08, 2021, file stamp date by the Clerk (mailed on June 04, 2021i
certified mail return receipt). The Court denied the Petition for
Rehearing on August 06, 2021, Petitioner did not receive this
order from the Court through the Coffield Unit mailroom intil
August 31, 2021.
Therefore, Petitioner seeks for a SIXTY (60) day extension
of time to file Writ of Certiorari, or a reasonable amount of time
Page 02

this Honorable Court sees fit, in order to adequately research- 1
case law, and present a meaningful Writ of Certiorari to this Honorable Court, in the interest of justice.
The proposed deadline will fall on, Monday, January 03, 2021,
or a reasonable amount of time this Honorable Court sees fit.
The following motion to seek for this Honorable Court's permission to extend the deadline to file Writ of Certiorari is prepared in GOOD FAITH so that justice and the United States Constitution may prevail and not to delay or harass the proceeding,
party, or the Court.
PRAYER FOR RELIEF:
The Petitioner prays that this Honorable Court will GRANT this
Motion and extend the deadline to Monday, January 03, 2021, or to
a reasonable amount of time this Honorable Court sees fit.

Respectfully Submitetd,

Je ry Lee Canfield
TDCJ# 01848978
H.H. Coffield Unit
2661 F.M. 2054
Tennessee Colony, TX 75884-5000
Pro se Litigant
No Email or Phone
INMATE DECLARATION:
I, Jerry Lee Canfield, TDCJ# 01848978, Petitioner in the above
-styled and -numbered cause, being incarcerated in the TDCJ-CID
H.H. Coffield Unit in Anderson County, Texas, declares that the
Page 03

